OFFICE OF THE ATTORNEY GENERAL
STATE OF ILLINOIS

KWAME RAOUL
ATTORNEY GENERAL

October 30, 2019
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Kevin W. Culp, et al. v. Kwame Raoul, et al., No. 19-487

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondents Kwame Raoul, Brendan F.
Kelly, and Jessica Trame respectfully request a 60-day extension from November 14,
2019, to January 13, 2019, to file their response to the petition for certiorari in the
above-captioned case. Counsel for the petitioners consents to this request.
This extension is necessary due to current and recent work responsibilities.
Specifically, I recently drafted a response brief in Holsapple v. Illinois, No. 5-19-0013
(Ill. App. Ct. Oct. 11, 2019), and a motion to certify an interlocutory appeal in Powell
v. Illinois, No. 18-cv-6675 (N.D. Ill. Oct. 28, 2019). I also assisted in drafting an
answer to a petition for rehearing en banc in Henry v. Reynolds, No. 16-4234 (7th Cir.
Oct. 15, 2019), as well as briefs in opposition to the petitions for a writ of certiorari in
Thomas v. Anderson, No. 18-1424 (Sept. 30, 2019); Givens v. Illinois, No. 18-9761
(Oct. 18, 2019); and Morgan v. Schott, No. 19-47 (Oct. 29, 2019). Additionally, I am
responsible for drafting several briefs with deadlines in November and December
2019, including the opening brief in Powell v. Illinois, No. 19-3144 (7th Cir.), on
December 9, 2019. Finally, as Deputy Solicitor General, I devote substantial time to
performing supervisory and administrative duties, such as reviewing briefs,
managing the office’s amicus docket, reviewing multistate litigation requests, and
helping attorneys prepare for oral arguments.

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

OFFICE OF THE ATTORNEY GENERAL
STATE OF ILLINOIS

KWAME RAOUL
ATTORNEY GENERAL

This is the respondents’ first request for an extension of time. It is not made
for the purpose of delay, but solely to insure that the respondents’ interests are
adequately protected. Thank you in advance for your attention to this matter.
Very truly yours,
/s/ Sarah A. Hunger
Deputy Solicitor General
Office of the Illinois Attorney General
100 West Randolph St., 12th Floor
Chicago, Illinois 60601
(312) 814-5202
shunger@atg.state.il.us
cc: David G. Sigale, Counsel for Petitioners

500 South Second Street, Springfield, Illinois 62701 (217) 782-1090 TTY: (877) 844-5461 Fax: (217) 782-7046
100 West Randolph Street, Chicago, Illinois 60601 (312) 814-3000 TTY: (800) 964-3013 Fax: (312) 814-3806
601 South University Ave., Carbondale, Illinois 62901 (618) 529-6400 TTY: (877) 675-9339 Fax: (618) 529-6416

